                       U.S. Department of Agriculture

                          Office of Inspector General
                                     Northeast Region




             Audit Report
    Food Safety and Inspection Service
    Recall Procedures for Adulterated
        or Contaminated Product

.




                             Report No. 24601-09-Hy
                                        August 2008
                           UNITED STATES DEPARTMENT OF AGRICULTURE
                                                 OFFICE OF INSPECTOR GENERAL

                                                        Washington D.C. 20250



August 7, 2008


REPLY TO
ATTN OF:              24601-09-Hy

TO:                   Charles F. Conner
                      Deputy Secretary

THROUGH: Phyllis K. Fong /s/
         Inspector General

FROM:                 Robert W. Young /s/
                      Assistant Inspector General
                        for Audit

SUBJECT:              Food Safety and Inspection Service Recall Procedures for Adulterated or
                      Contaminated Product


SUMMARY

In response to your memorandum dated October 5, 2007, we performed an audit to determine
whether improvements could be made to the Food Safety and Inspection Service’s (FSIS)
protocols for handling recalls to ensure that accurate information is rapidly obtained and
conveyed to the appropriate decision makers.1 We also evaluated whether FSIS is taking full
advantage of its current statutory authorities to address recall situations. We concluded that FSIS
has taken strides to strengthen and improve its investigative and recall procedures and took full
advantage of its current authority to address recalls, such as the Topps Meat Company (Topps)
recall. However, FSIS does not have a science-based sampling protocol in place to collect and
analyze a representative quantity of intact2 samples to submit for testing during an outbreak
investigation.

At the time of the recall, there were 5,568 packages (over 11,000 pounds) of product from the
same production day at Topps. However, of the 5,568 packages, FSIS collected the only
available package of intact product with the identical labeling as the non-intact3 product from a
1
    On January 29, 2008, we issued a memorandum on “FSIS’ Sampling and Testing Procedures for E. coli O157:H7” (Audit No. 24601-04-KC).
2
    An intact product is an unopened packaged product.
3
    A non-intact product is a product with opened packaging or a product that has been taken out of its original packaging.
Charles F. Conner                                                                                        2


case patient’s home to test for Escherichia coli (E. coli) O157:H7. This occurred because the
agency does not have a protocol in place to collect a representative quantity of intact samples
that should be submitted for laboratory analysis during an outbreak investigation. The product
collected by FSIS personnel from Topps tested negative for E. coli on September 8, 2007.
According to FSIS officials, the agency became aware of the additional product at Topps on
September 13, 2007. Based on the information available at the time and existing FSIS policy, the
agency had no justification for conducting additional tests. As a result, FSIS could not conclude
that contamination occurred at the establishment. The lack of additional product testing
potentially delayed FSIS’ ability to recommend a recall. FSIS ultimately recommended a recall
on September 25, 2007, based on a positive test result by a State agency.

As a result of the lessons learned from a number of recalls (including the Topps recall) and FSIS’
assessment of recall policies and procedures, the agency has taken strides to strengthen decision
making in response to outbreak situations by developing an investigative directive and revising
the recall directive. FSIS expects to finalize these directives in September 2008.

FSIS agreed with the Office of Inspector General’s (OIG) recommendations; however, the
agency had some concerns with parts of the audit and its conclusions. For example, the Topps
illness investigation involved multiple products with differing DNA, or deoxyribonucleic acid,4
fingerprints. The potential source of the contamination involved multiple establishments, some
foreign. Since the product obtained from the initial patient was non-intact, it could have been
contaminated in a variety of ways (i.e., improper handling by the consumer, cross contamination
with produce, etc.). Only one intact same-sized box of product was available at the establishment
when FSIS requested that in-plant inspection personnel submit a sample.

In addition, at the time FSIS collected the intact sample on September 5, 2007, the investigation
was not an outbreak investigation. It was not until September 10, 2007, that FSIS was first
notified that a cluster of 12 E. coli O157:H7 case patients had been reported to the Centers for
Disease Control and Prevention. It was not until September 21, 2007, that an intact box of Topps
ground beef tested positive for E. coli O157:H7, and in this case the product that tested positive
had an earlier sell by date than that consumed by the initial case patient.

FSIS noted these facts surrounding the investigation only to highlight the uncertainty involved in
such an epidemiological investigation, especially during the early stages. We have incorporated
excerpts from FSIS’ response in the Audit Results section of this report, along with our position,
and accepted FSIS’ management decision on each of the recommendations. FSIS’ response is
included in the Attachment.




4
    DNA, or deoxyribonucleic acid, is the genetic material of all cellular organisms and most viruses.
Charles F. Conner                                                                                                                          3


BACKGROUND

As the public health regulatory agency of the U.S. Department of Agriculture (USDA), FSIS is
responsible for ensuring that meat and poultry products are safe, wholesome, and properly
labeled. When there is reason to believe that product may be adulterated or contaminated, FSIS
can request an establishment to voluntarily remove the product from commerce, through a recall.
Although recalls are voluntary, FSIS oversees all recall activities actually undertaken by
establishments. If an establishment refuses to recall a meat or poultry product, FSIS has legal
authority to detain and/or seize those products in commerce.

On September 25, 2007, FSIS announced that Topps, an Elizabeth, New Jersey establishment,
voluntarily recalled approximately 332,000 pounds of frozen ground beef products that may have
been contaminated with E. coli O157:H7. On September 29, 2007, FSIS announced that Topps
was expanding the Class I5 recall to include approximately 21.7 million pounds of frozen ground
beef products. These products were produced on various dates between September 25, 2006 and
September 25, 2007, and were distributed to food service institutions in the New York
metropolitan area and to retail establishments nationwide. The recall was expanded based on an
additional positive product sample reported by the New York State Department of Health,
reported illnesses, and findings from a food safety assessment6 conducted by FSIS at the
establishment. In October 2007, the establishment ceased all operations.

OBJECTIVE

Our overall objective was to evaluate FSIS’ recall procedures for adulterated or contaminated
product that has already entered the food distribution chain. Specifically, we (1) evaluated
whether any improvements could be made to FSIS’ processes for handling recalls to ensure that
accurate information is rapidly obtained and conveyed to the appropriate decision makers and
(2) evaluated whether FSIS is taking full advantage of its current statutory authorities to address
recall situations.

SCOPE AND METHODOLOGY

We performed our audit at FSIS Headquarters in Washington, D.C. Our audit fieldwork was
performed from November 2007 to March 2008. To accomplish our objectives, we interviewed
the appropriate officials, examined pertinent documentation, and reviewed applicable policies
and procedures.

We interviewed FSIS officials to gain an understanding of (1) FSIS’ protocols for handling
recalls to ensure that accurate information is conveyed to the appropriate decision makers,

5
    A Class I recall is a health-hazard situation where there is a reasonable probability that the use of the product will cause adverse health
    consequences or death.
6
    A comprehensive food safety assessment considers all food safety aspects that relate to the establishment and its products, the nature and
    source of all materials received, the establishment’s processes, and the environment of the establishment.
Charles F. Conner                                                                                                                                4


(2) FSIS’ current statutory authority, and (3) FSIS’ involvement in the Topps recall. We
interviewed officials from FSIS’ Office of Policy, Program, and Employee Development; Office
of Program Evaluation, Enforcement and Review; Office of Field Operations’ Recall
Management Staff; and Office of Public Health Science’s Microbiology Division and the
Outbreak Section Eastern Laboratory. In addition, we interviewed State Department of Health
officials for Florida and New York, and an official from the Florida State Department of
Agriculture.

We analyzed FSIS’ draft directive regarding its foodborne illness investigations and proposed
revisions to its recall directive. We also examined FSIS’ policies and procedures to detain or
seize adulterated product found in commerce, collect evidence during an outbreak investigation,
work with the States and other Federal agencies during a foodborne illness investigation, and test
for E. coli at laboratories. We analyzed the chronology of events of FSIS’ involvement in the
Topps recall for any delays or instances where FSIS procedures were not followed. In addition,
we consulted with OIG’s Office of Counsel regarding proposed legislation granting FSIS
mandatory recall authority and the final proposed rule on the availability of lists of retail
consignees during meat and poultry product recalls. Finally, we reviewed the results of FSIS’
assessment of its policies and procedures for issuing a public health alert,7 using
epidemiological8 data, and strengthening the recall directive.

We conducted the audit in accordance with Government Auditing Standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions.

AUDIT RESULTS

FSIS needs to collect and analyze a more representative sample of intact product during an
outbreak investigation to be able to conclude whether contamination occurred at the
establishment under investigation. In addition, FSIS has not finalized and implemented its draft
directive for investigating foodborne illnesses and its revised directive for handling recalls.

FSIS Should Collect and Analyze a More Representative Sample During an Outbreak
Investigation

FSIS does not have a protocol in place to collect a representative quantity of intact samples that
should be submitted for laboratory analysis during an outbreak investigation. According to FSIS
officials, intact product sampling may not be practical in all cases because of the availability of
the product at the time of the investigation. However, at Topps, 5,568 packages (over
11,000 pounds) of product from the same production day were available for sampling. Due to a

7
    Public health alerts provide guidance to consumers and health professionals about the risks of illness associated with an identified pathogen.
8
    Epidemiology is the study of the distribution and causes of disease in a population.
Charles F. Conner                                                                                                                               5


lack of guidance for collecting and analyzing a representative quantity of intact samples, FSIS
personnel collected the only package of the 5,568 packages that had the identical labeling as the
non-intact product from a case patient’s home, which tested negative for E. coli on September 8,
2007. As a result, FSIS could not conclude that contamination had occurred at the establishment.
The lack of additional product testing potentially delayed the agency’s ability to recommend a
recall.
On August 31, 2007, FSIS was notified through the Consumer Complaint Monitoring System of
an illness possibly linked to Topps hamburger patties. In response, FSIS collected and submitted
for testing non-intact product found in the patient’s freezer. On September 5, 2007, the
laboratory analysis confirmed that 2 of the 13 sub-samples9 tested positive for E. coli O157:H7.
FSIS also collected and submitted for testing the one like coded and labeled intact package of
product found at the establishment. As noted above, on September 8, 2007, the laboratory
reported that all 13 sub-samples from the intact product tested negative for E. coli O157:H7.

Due to the lack of a protocol, FSIS did not analyze any of the 5,568 packages of product from
the same production day for E. coli after FSIS personnel became aware of this product on
September 13, 2007.10 On September 25, 2007, FSIS announced a recall based on a positive
E. coli test result by a State agency on intact product purchased from a retailer on
September 21, 2007.

During an outbreak investigation, FSIS collects and submits for laboratory analysis product
samples from the establishment. Investigative sample collection and analysis is an important
component of evidence collection during an outbreak investigation. It includes sampling the
inventory from establishments engaged in preparation or storage of meat or poultry products.
FSIS primarily uses investigative samples to support agency decisions, to take enforcement
actions, to support violations of law, and to obtain a ruling in court.11 A sampling protocol based
on established scientific methods would assist FSIS in these efforts. The FSIS directive,
however, does not include a protocol for collecting a representative sample of product at the
establishment for analysis.

According to FSIS officials, the agency could not conclude that contamination had occurred at
Topps since the intact product sample obtained tested negative and there was only one reported
illness from a positive non-intact package. Based on this information and the lack of a strong
epidemiological case eliminating all possible cross contamination from other sources, the recall
committee did not convene to determine the need for a recall. Because E. coli is difficult to
detect and sporadically present at very low levels, multiple representative samples, if available,
should be collected from the establishment and analyzed to provide stronger assurance that E.
coli is or is not present.

9
     For outbreak-related samples, FSIS randomly collects 13 sub-samples, each weighing 25 grams, which are representative of the entire product
     sample.
10
     According to FSIS officials, based on the information available at the time and existing policy, the agency had no justification for conducting
     additional tests.
11
     FSIS Directive 8010.3, Procedures for Evidence Collection, Safeguarding and Disposal, September 5, 2007.
Charles F. Conner                                                                                                                             6



Recall Procedures

As a result of the lessons learned from a number of recalls (including the Topps recall) and FSIS’
assessment of recall policies and procedures, the agency has taken strides to strengthen decision
making in response to outbreak situations by developing an investigative directive and revising a
recall directive. FSIS expects to finalize these directives in September 2008. Therefore, we could
not evaluate their adequacy.

       FSIS developed a draft directive12 for investigating foodborne illnesses potentially associated
       with regulated meat. According to the draft directive and FSIS officials, the agency will now
       consider an entire range of investigative information and use established epidemiologic
       principles13 to assess the strength of the association between FSIS–regulated product and the
       illness. In addition, using epidemiological data to draw conclusions when conducting
       foodborne illness investigations will allow the agency to respond more timely to recalls.

       FSIS revised the recall directive14 to reflect changes in agency policy to include revisions to
       procedures to determine the need for a recall, such as handling recalls from foreign countries,
       and specific instructions on the conditions under which the agency should issue a public
       health alert. In addition, FSIS revised recall committee procedures and responsibilities to
       ensure that accurate information is obtained and conveyed to the appropriate decision
       makers. For example, the recall directive requires that committee members make every effort
       to achieve consensus on whether to recommend that the agency request a recall. If a
       consensus cannot be reached, dissenting members are required to contact their program area
       Assistant Administrator.

Statutory Authority

Under current law, FSIS may only recommend that an establishment voluntarily remove the
product from trade or consumer channels. FSIS may administratively detain the product in the
event that an establishment does not voluntarily recall a product. Where appropriate, FSIS may
then pursue judicial seizure and legal proceedings in accordance with its directive.15 A recall is
an alternative to FSIS detention or seizure of an adulterated product. We concluded that FSIS
took full advantage of its current statutory authorities to address the Topps recall.

According to FSIS officials, only one establishment over the last 8 years disagreed with FSIS’
recommendation to recall its product. In a situation like this, FSIS will detain any product found

12
     Draft Foodborne Illness Investigations Directive.
13
     FSIS uses established epidemiologic principles and investigative techniques published by the International Association of Food Protection to
     determine causal factors of disease outbreaks.
14
     FSIS Directive 8080.1, Revision 5, Recall of Meat and Poultry Products. This revision is currently in draft.
15
     FSIS Directive 8410.1, Revision 4, Detention and Seizure, September 4, 2007. This updated directive did not change FSIS’ current authority to
     detain and seize product.
Charles F. Conner                                                                                                                                7


in commerce that would have been subject to the recall and issue a press release informing the
public that product that appears to be adulterated has been shipped and the establishment has
refused to recall it.16 According to FSIS officials, after FSIS issued its press release on the one
establishment that disagreed with FSIS’ recommendation, the establishment began to recall its
product within two days of the public health alert and subsequently completed the recall process.

Final Rule on the Availability of Lists of Retail Consignees
In March 2006, FSIS proposed to amend its regulations to make available to the public a list of
the retail consignees of meat and poultry products that have been voluntarily recalled by a
Federally-inspected establishment, if product has been distributed to the retail level. This rule
will apply only where there is a reasonable probability that the use of the recalled product will
cause serious adverse health consequences or death (Class I recalls). FSIS has generally treated
distribution lists obtained during recalls as confidential business information. FSIS regulation17
required disclosure of this information to States and other Federal government agencies through
a memorandum of understanding to enable them to verify the removal of the recalled products
from commerce. However, State laws prohibit some States from entering into such agreements
with USDA. State officials have requested that the distribution list be provided to them without
entering into an agreement with USDA, believing that they would be better able to protect the
public health by identifying more easily and effectively the product being recalled. Therefore,
FSIS believes that this proposal would improve the efficiency of the recall process and address
State officials’ concerns. FSIS proposed applying the rule to all classes of recalls. However, after
evaluating comments to the proposed rule, including those that suggested that it is not necessary
to make public retail consignee lists in situations where food safety concerns are minimal, FSIS
concluded that it is prudent to modify the rule to apply only to those recalls involving products
where there is a reasonable probability that the use of the recalled product will cause serious
adverse health consequences or death. The final rule was published on July 17, 2008, and will be
effective on August 18, 2008.

FSIS’ draft investigative and recall directives are positive actions FSIS has taken to further
improve and strengthen its processes for handling outbreak investigations and recalls. FSIS
should finalize and implement the new directive for investigating foodborne illnesses and the
revised directive for handling recalls.

Recommendation 1

Develop and implement a science-based sampling protocol to collect and analyze a
representative sample of product at an establishment to conclude whether contamination
occurred there. The protocol should take into consideration the amount of relevant product
available for testing.


16
     FSIS Directive 8080.1, Revision 4, Recall of Meat and Poultry Products, May 24, 2004. Revision 5 of this directive is currently in draft.
17
     9 CFR, Part 390.9 (a) (1), dated April 24, 2002.
Charles F. Conner                                                                               8


Agency Response

FSIS agrees with the recommendation and will develop and implement a science-based sampling
protocol to collect a more representative sample of product at an establishment during
epidemiological investigations. The protocol will take into consideration the amount of relevant
product available for testing. As noted in OIG’s January 29, 2008, report to Charles F. Connor on
FSIS’ sampling and testing programs for E. coli O157:H7, regardless of the number of samples
tested, the pathogen’s existence cannot be detected in all cases nor can the prevalence be
determined and projected to the total production in a particular lot or on a given day. However, a
sampling protocol for epidemiological investigations will be established that provides a more
representative sample. The estimated completion date is September 2008.

OIG Position

We accept FSIS’ management decision.

Recommendation 2

Finalize and implement the new directive for investigating foodborne illnesses and the revised
directive for handling recalls.

Agency Response

FSIS agrees with the recommendation and will finalize and implement new directives for
investigating foodborne illnesses and for handling recalls. As noted in the report, draft
procedures were shared with OIG during the course of the audit and these will be finalized. The
estimated completion date is September 2008.

OIG Position

We accept FSIS’ management decision.

Please follow your internal agency procedures for reporting final action to the Office of the Chief
Financial Officer. Please note that Departmental Regulation 1720-1 requires final action to be
completed within 12 months of management decision.

We appreciate the courtesies and cooperation extended to our staff during our review.

Attachment
Attachment

Page 1 of 3
Page 2 of 3
Page 3 of 3
